Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   MEDICARE PAYMENT FOR 

        IRINOTECAN





                    Daniel R. Levinson

                     Inspector General 


                      August 2008

                     OEI-03-08-00310

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                   S U M M A R Y


                  OBJECTIVE
                  To compare the first-quarter 2008 Medicare payment amount to
                  manufacturer prices for irinotecan hydrochloride in March 2008.


                  BACKGROUND
                  Irinotecan hydrochloride (hereinafter referred to as irinotecan) is an
                  injectable drug used to treat patients with colorectal cancer. The
                  Food and Drug Administration approved the first generic version of
                  irinotecan on February 20, 2008. This study examines the difference
                  between the Medicare payment amount and manufacturer-reported
                  sales prices during March 2008. At that time, generic versions of
                  irinotecan were available for purchase, but not yet factored into the
                  calculation of the Medicare payment amount because of the
                  two-quarter lag between the time when sales occur and the time when
                  these sales become the basis for Medicare payment.

                  Sections 1847A(d)(1) and (2) of the Social Security Act (the Act), as
                  added by the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003, P.L. No. 108-173, direct the Office of
                  Inspector General (OIG) to undertake studies that compare average
                  sales prices (ASP) to widely available market prices and average
                  manufacturer prices (AMP). If OIG finds that the ASP for a drug
                  exceeds the widely available market price by a certain threshold
                  (currently 5 percent), section 1847A(d)(3) of the Act states that the
                  Secretary of the Department of Health and Human Services (the
                  Secretary) may disregard the ASP for the drug when setting
                  reimbursement. After being so informed by OIG, the Secretary shall
                  substitute, effective as of the next quarter, the payment amount for
                  that drug with the lesser of the widely available market price, or
                  103 percent of the AMP.

                  We collected pricing and other information (e.g., sales volume and
                  discounts) from seven manufacturers of irinotecan (one brand-name
                  manufacturer and six generic manufacturers). To calculate the average
                  manufacturer sales price, we divided total sales (net of discounts, where
                  available) for March 2008 by the total number of units sold during that
                  month. We compared the first-quarter 2008 Medicare payment amount
                  to the March 2008 average manufacturer sales price calculated by OIG.
                  We also estimated the amount that Medicare would have saved in



OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN                          i
E X E C U T I V E                       S U            M M A R Y


                   March 2008 if reimbursement had been based on average manufacturer
                   sales prices.


                   FINDING
                   In March 2008, the Medicare payment amount for irinotecan was
                   more than double the OIG-calculated average manufacturer sales
                   price. The Medicare payment amount for irinotecan ($126.31) exceeded
                   the OIG-calculated average manufacturer sales price ($51.59) by
                   145 percent in March 2008. Lower priced generic versions accounted for
                   the vast majority (86 percent) of irinotecan sales in March 2008. The
                   average manufacturer sales price for generic irinotecan was $40.66; the
                   average manufacturer sales price for the brand-name product was nearly
                   three times greater.

                   Further, we estimate that had the Medicare payment amount for
                   irinotecan been based on the average manufacturer sales price in
                   March 2008, Medicare expenditures for this drug would have been
                   reduced by $6.5 million in that month alone.


                   RECOMMENDATION
                   Because of the two-quarter lag in CMS’s standard process for
                   establishing Medicare payment amounts, the underlying pricing issues
                   identified in this report are not limited to irinotecan. Absent a change
                   in the standard process, Medicare payment amounts for drugs with new
                   generic versions will continue to be temporarily higher than
                   manufacturer sales prices, sometimes substantially.
                   We therefore recommend that CMS explore options to expedite the
                   process to ensure that Medicare payment amounts for drugs with
                   newly available generic versions accurately reflect market prices. The
                   Secretary has the authority to lower Medicare payment amounts based
                   on the results of OIG studies comparing ASPs to AMPs and widely
                   available market prices; however, CMS has yet to make any changes as
                   a result of OIG’s pricing comparisons. Further, the effectiveness of
                   using this authority to address the disparities between Medicare
                   payment amounts and market prices for drugs with newly available
                   generics is limited by timing issues. In addition to the time needed to
                   collect data on widely available market prices, pricing changes based on
                   these data would not take effect until the quarter after OIG provides the
                   pricing data to CMS. Therefore, CMS should explore alternative


 OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN                       ii
E X E C U T I V E                       S U            M M A R Y


                   options to address pricing discrepancies arising from newly available
                   generic drugs, which may include seeking a legislative change.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS concurred with our
                   recommendation. CMS expressed its commitment to ensuring
                   accurate payments for drug products under the ASP methodology and
                   will review any specific suggestions OIG may have to further this
                   goal. CMS noted that the third-quarter 2008 Medicare payment
                   amount for irinotecan is $74.75, representing a 40-percent decrease
                   from the previous quarter ($126.24). CMS also noted that this
                   decrease results in a payment differential per unit for the third
                   quarter that is substantially lower than the differential for March
                   2008, demonstrating that the ASP methodology reflects market-based
                   prices over time.
                   OIG’s recommendation focuses on exploring options to reduce the
                   time it takes for ASP to reflect market-based prices. The third-
                   quarter payment amount is still substantially higher than the
                   average manufacturer sales price OIG found for March 2008 ($51.59),
                   further illustrating the effects of the two-quarter lag. The first full
                   quarter of generic sales data for irinotecan will not be reflected in the
                   Medicare payment amount until October 2008—almost 8 months
                   after the first generic versions reached the market.




 OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN                         iii
Δ   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDING................................................... 8

                    Medicare payment was more than double the OIG-calculated ...........
                    average manufacturer sales price in March 2008 . . . . . . . . . . . . . . 8


         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    Agency Comments and Office of Inspector General Response . . . 11 



         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To compare the first-quarter 2008 Medicare payment amount to
                  manufacturer prices for irinotecan hydrochloride in March 2008.


                  BACKGROUND
                  Irinotecan hydrochloride (hereinafter referred to as irinotecan) is an
                  injectable drug used to treat patients with colorectal cancer. The
                  Food and Drug Administration (FDA) approved the first generic
                  version of irinotecan on February 20, 2008. This study examines the
                  difference between the Medicare payment amount and
                  manufacturer-reported sales prices during March 2008. At that time,
                  generic versions of irinotecan were available for purchase, but not yet
                  factored into the calculation of the Medicare payment amount.
                  Medicare Part B Payment for Irinotecan
                  Medicare Part B covers a limited number of outpatient prescription
                  drugs, including drugs used in conjunction with durable medical
                  equipment; injectable drugs administered by a physician (such as
                  irinotecan); certain self-administered drugs, such as oral anticancer
                  drugs and immunosuppressive drugs; and some vaccines.1 To obtain
                  Medicare payment for Part B-covered drugs like irinotecan, physicians
                  submit claims using codes established by the Centers for Medicare &
                  Medicaid Services (CMS) as part of the Healthcare Common Procedure
                  Coding System (HCPCS).2 The HCPCS codes provide a standardized
                  coding system for describing the specific items and services provided in
                  the delivery of health care. In the case of prescription drugs, each
                  HCPCS code defines the drug name and dosage size but does not specify
                  manufacturer or package size information. Medicare and its
                  beneficiaries paid $132 million for irinotecan in 2007.3
                  Medicare payment methodology. The Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003 (MMA), P.L. 108-173,


                     1 For the purpose of this report, the term “Part B-covered drugs” refers to outpatient
                  prescription drugs covered by Medicare Part B. Part B-covered drugs do not refer to drugs
                  billed under Part A but paid with Part B funds, such as drugs administered in a dialysis
                  setting.
                    2 CMS contracts with private companies, known as carriers, to process and pay Medicare
                  Part B claims.
                     3 Medicare Part B Extract and Summary System, updated through March 2008
                  (98 percent of claims reported), accessed on May 15, 2008.



OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN                                              1
I N T R O D        U C T            I O N 



                    changed the basis of payment for most Part B-covered drugs to average
                    sales price (ASP) effective January 1, 2005. Prior to 2005, Medicare
                    generally paid for these drugs based on the average wholesale price
                    (AWP).4 Previous reports by the Office of Inspector General (OIG) and
                    the Government Accountability Office found that the AWP-based
                    reimbursements were often significantly higher for Part B-covered
                    drugs than the prices that drug manufacturers, wholesalers, and
                    similar entities actually charged the physicians and suppliers that
                    purchased these drugs.5
                    Section 1847A(c) of the Social Security Act (the Act), as added by the
                    MMA, defines the ASP as a manufacturer’s sales of a drug to all
                    purchasers in the United States in a calendar quarter divided by the
                    total number of units of the drug sold by the manufacturer in that same
                    quarter. The ASP includes all sales (e.g., sales to pharmacies that are
                    reimbursed by Medicaid or private insurance plans), not just sales
                    reimbursed by Medicare Part B. The ASP is net of any price
                    concessions, such as volume, prompt pay, and cash discounts; free goods
                    contingent on purchase requirements; chargebacks; and rebates other
                    than those obtained through the Medicaid drug rebate program.6 Sales
                    that are nominal in amount are exempted from the ASP calculation, as
                    are sales excluded from the determination of “best price” in the
                    Medicaid drug rebate program.7 8
                    Manufacturers report ASPs by national drug codes (NDC), which are
                    11-digit identifiers that indicate the drug name, the manufacturer of the
                    drug, the product dosage form, and the package size. Manufacturers
                    must provide CMS with the ASP and volume of sales for each NDC on a




                       4 In 2004, the reimbursement amount for most covered drugs was based on either
                    80 or 85 percent of the AWP as published in national pricing compendia, such as the “Red
                    Book.” Prior to 2004, Medicare Part B reimbursed for covered drugs based on the lower of
                    either the billed amount or 95 percent of the AWP.
                      5 OEI-03-00-00310, January 2001; OEI-03-97-00290, December 1997; GAO-01-1118,
                    September 2001.
                       6 Section 1847A(c)(3) of the Act.
                       7 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                    from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
                    maintenance organization, nonprofit entity, or governmental entity within the United
                    States, with certain exceptions.
                       8 Section 1847A(c)(2) of the Act.




 OEI-03-08-00310    M E D I C A R E PAY M E N T   FOR   IRINOTECAN                                                     2
I N T R O D        U C T            I O N


                    quarterly basis, with submissions due 30 days after the close of the
                    quarter.9
                    Because Medicare payment for Part B-covered drugs is based on
                    HCPCS codes rather than NDCs and more than one NDC may meet the
                    definition of a particular HCPCS code, CMS has developed a file that
                    “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                    information in the crosswalk to calculate volume-weighted ASPs for
                    covered HCPCS codes.

                    Because Medicare payment amounts are based on ASPs reported by
                    manufacturers within 30 days after the end of the applicable calendar
                    quarter, there is a two-quarter lag between the time when sales
                    reflected in the ASP occur and the time when these sales become the
                    basis for Medicare payment amounts. For example, third-quarter 2007
                    ASP data from manufacturers served as the basis for first-quarter 2008
                    Medicare payment amounts for most Part B-covered drug codes,
                    including irinotecan. Effective January 1, 2005, Medicare payment
                    amounts for most Part B-covered prescription drugs are equal to
                    106 percent of the volume-weighted ASPs for the HCPCS codes.
                    Medicare beneficiaries are responsible for 20 percent of this amount in
                    the form of coinsurance.
                    Generic Versions of Irinotecan
                    On February 20, 2008, FDA approved the first generic versions of
                    irinotecan. As of May 2008, nine manufacturers had received FDA
                    approval to market the drug. The generic versions of irinotecan are
                    identical, or bioequivalent, to the brand-name version in dosage form,
                    safety, strength, route of administration, quality, performance
                    characteristics, and intended use, according to FDA. Although generic
                    drugs are chemically identical to their branded counterparts, they are
                    typically sold at substantial discounts from the branded price.10
                    However, because of the two-quarter lag, the Medicare payment amount
                    for brand-name and generic irinotecan will be based on only
                    brand-name ASPs and will not include the ASPs for generic irinotecan
                    until the third quarter of 2008 (beginning July 1, 2008). In addition,
                    because the generic versions were not sold until the middle of the first
                    quarter, the full impact of generic irinotecan will not be realized in


                       9 Section 1927(b)(3) of the Act.
                       10 FDA. “Office of Generic Drugs.” Available online at http://www.fda.gov/cder/ogd/.
                    Accessed on May 5, 2008.



 OEI-03-08-00310    M E D I C A R E PAY M E N T   FOR   IRINOTECAN                                            3
I N T R O D        U C T            I O N


                    July 2008; i.e., the first full quarter of sales will be for the period from
                    April 1 to June 30, 2008, which then are reflected in the Medicare
                    payment amount starting October 1, 2008.
                    Office of Inspector General Authority to Conduct Medicare Drug Pricing
                    Studies
                    Sections 1847A(d)(1) and (2) of the Act, as added by the MMA, direct
                    OIG to undertake studies that compare ASPs to widely available
                    market prices and average manufacturer prices (AMP).11 12 Related
                    to this requirement, OIG has completed six reports comparing ASPs
                    to AMPs and one report comparing ASPs to widely available market
                    prices.13 In determining widely available market prices, OIG is
                    authorized to consider information from sources including (but not
                    limited to) manufacturers, wholesalers, distributors, physicians, and
                    suppliers.14
                    If OIG finds that the ASP exceeds the widely available market price
                    or AMP by a certain threshold (currently 5 percent), the Secretary of
                    the Department of Health and Human Services (the Secretary) may
                    disregard the ASP for the drug when setting reimbursement.15 After
                    being so informed by OIG, the Secretary shall substitute, effective as
                    of the next quarter, the payment amount for that drug with the lesser
                    of the widely available market price, or 103 percent of the AMP.16
                    Although CMS acknowledged the Secretary’s authority to adjust ASP
                    payment limits based on the findings of these studies, the agency has
                    yet to make any changes to Part B drug reimbursement as a result of
                    OIG’s pricing comparisons.

                    In commenting on one of OIG’s reports, CMS expressed a desire to
                    better understand the fluctuating differences between ASPs and
                    AMPs, with the intent of developing a process to adjust payment

                      11 Section 1927(k)(1) of the Act generally defines AMP as the average price paid to the
                    manufacturer by wholesalers in the United States for drugs distributed to the retail
                    pharmacy class of trade.
                      12 Section 1847A(d)(5) of the Act defines widely available market price to be the price
                    that a prudent physician or supplier would pay for the drug, net of any routinely available
                    price concessions.
                       13 OEI-03-04-00430, April 2006; OEI-03-05-00430, June 2006; OEI-03-06-00370,
                    July 2006; OEI-03-07-00140, July 2007; OEI-03-07-00530, September 2007;
                    OEI-03-08-00010, December 2007; and OEI-03-08-00130, May 2008.
                       14 Section 1847A(d)(5)(B) of the Act.
                       15 Section 1847A(d)(3)(A) of the Act.
                       16 Section 1847A(d)(3)(C) of the Act.




 OEI-03-08-00310    M E D I C A R E PAY M E N T   FOR   IRINOTECAN                                                4
I N T R O D        U C T            I O N


                    amounts based on the results of OIG’s comparisons.17 However, CMS
                    has not specified what, if any, steps it will take to adjust Medicare
                    payment amounts.


                    METHODOLOGY
                    Scope and Data Collection
                    Scope. We compared the Medicare payment amount from the first and
                    second quarters of 2008 to manufacturer sales prices from March 2008.
                    We obtained Medicare payment data from CMS and manufacturer sales
                    data from irinotecan manufacturers.

                    Manufacturer sales data. In April 2008, we sent surveys to seven
                    manufacturers that have FDA approval to produce and market
                    brand-name and generic irinotecan (one brand-name manufacturer and
                    six generic manufacturers).18 The surveys requested that the
                    manufacturers provide total irinotecan sales and sales volume for
                    March 2008 by NDC.19 20 We also asked manufacturers to include any
                    discounts and rebates that they offered to their customers. All seven
                    manufacturers responded to our survey; six manufacturers provided us
                    with irinotecan sales data.21
                    CMS data. We obtained the Medicare payment amount for irinotecan
                    from CMS for the first and second quarters of 2008 (based on
                    volume-weighted ASPs from the third and fourth quarters of 2007,
                    respectively).
                    Data Analysis
                    To calculate the average manufacturer sales price, we summarized the
                    total irinotecan sales (including brand-name and generic irinotecan) for


                       17 OEI-03-07-00140, July 2007.
                       18 Two additional manufacturers received approval to produce irinotecan; however, we
                    excluded these manufacturers from our analysis. One manufacturer received FDA approval
                    to market irinotecan after we began data collection; the other manufacturer is not based in
                    the United States. Additionally, the manufacturer of brand-name irinotecan also produces
                    a generic version through a subsidiary company; we consider the data for both products to
                    be from the same respondent.
                      19 Several manufacturers stated that the data were the same as the ASP data they would
                    report to CMS.
                     20 One manufacturer provided data that included sales from February 28 through
                    March 31, 2008.
                       21 The manufacturer that did not provide sales data responded that it did not have any
                    irinotecan sales for the period under review (March 2008).



 OEI-03-08-00310    M E D I C A R E PAY M E N T   FOR   IRINOTECAN                                              5
I N T R O D        U C T            I O N


                    March 2008 to all customers, net of discounts, where available, and
                    divided that number by the total number of units sold during that
                    month.22 This figure is hereinafter referred to as the average
                    manufacturer sales price.

                    Comparing Medicare payment amount to manufacturer sales prices. We
                    compared the first-quarter 2008 Medicare payment amount for irinotecan
                    to the average manufacturer sales prices from March 2008. We calculated
                    the percentage difference between the average manufacturer sales price
                    and the Medicare payment amount for irinotecan.

                    Brand-name and generic product sales. The average manufacturer sales
                    prices include prices for both generic and brand-name products; the
                    Medicare payment amount from the first quarter of 2008 includes only
                    ASPs for brand-name products. We also calculated separate average
                    manufacturer sales prices for brand-name and generic versions of
                    irinotecan and determined the percentage of manufacturer sales in
                    March 2008 for both versions.

                    Monetary impact. We estimated what the monetary impact would have
                    been in March 2008 if Medicare had based payment for irinotecan on the
                    average manufacturer sales price calculated for this report. We subtracted
                    the March 2008 average manufacturer sales price from the first-quarter
                    2008 Medicare payment amount for irinotecan. To estimate the financial
                    impact for March 2008, we multiplied the difference by one-twelfth of the
                    number of services allowed by Medicare for irinotecan in 2007, as reported
                    in CMS’s Part B Extract and Summary System.23 This estimate assumes
                    that the number of services allowed by Medicare in 2007 remained
                    consistent from 1 month to the next and that there were no significant
                    changes in utilization between 2007 and 2008. We also estimated what
                    the financial impact would have been if Medicare had based payment for
                    irinotecan on the average manufacturer sales price during the time the
                    Medicare payment amount included brand-name prices only, i.e., March to
                    June 2008.
                    Limitations
                    This study compares 1 month of manufacturer sales data to one quarter
                    of Medicare payment data; we were unable to collect a full quarter of

                      22 The unit values are based on the Medicare payment amount for irinotecan. Medicare
                    payment for irinotecan is calculated per 20 milligrams.
                      23 As of May 15, 2008, CMS’s 2007 Medicare Part B Extract and Summary System was
                    98 percent complete.



 OEI-03-08-00310    M E D I C A R E PAY M E N T   FOR   IRINOTECAN                                           6
I N T R O D        U C T            I O N


                    manufacturer sales data because manufacturers did not receive
                    approval to market generic versions of irinotecan until February 20,
                    2008. We did not verify the accuracy of the sales data provided by the
                    manufacturers.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-08-00310    M E D I C A R E PAY M E N T   FOR   IRINOTECAN                       7
 Δ            F I N D I N G

                                                                                           The Medicare payment amount
In March 2008, the Medicare payment amount for                                             for irinotecan ($126.31) exceeded
            irinotecan was more than double the                                            the OIG-calculated average
OIG-calculated average manufacturer sales price                                            manufacturer sales price ($51.59)
                                                                                           by 145 percent in March 2008.
                                                                                           (See Table 1.)
 Table 1. Volume-Weighted ASP and Manufacturer Sales Price for Irinotecan

 HCPCS         Short Description                                                     March 2008                First-Quarter   Percentage
 Code                                                                                Average                   2008 Medicare   Difference
                                                                                     Manufacturer              Payment
                                                                                     Sales Price*              Amount**

 J9206          Irinotecan injection, 20 milligrams                                  $51.59                    $126.31           145%

 *Source: OIG analysis of March 2008 manufacturer sales prices for irinotecan. The average manufacturer sales price includes both brand-name and
 generic irinotecan.

 **Source: CMS’s first-quarter 2008 ASP file (based on volume-weighted ASPs from the third quarter of 2007).


                                    Generic irinotecan made up the majority of manufacturer sales and had
                                    substantially lower prices in March 2008
                                    Lower priced generic versions accounted for the vast majority
                                    (86 percent) of irinotecan sales in March 2008. According to
                                    manufacturer sales prices and sales volume in March 2008, the
                                    average price for generic irinotecan was $40.66; the average price for
                                    the brand-name product was nearly three times greater.24 Therefore,
                                    any purchaser acquiring generic irinotecan in March 2008 received
                                    Medicare payment that was approximately $85 more than the
                                    average manufacturer sales price. In addition, because the Medicare
                                    payment amount changed minimally in the second quarter of 2008,
                                    manufacturer sales prices are likely to continue to be substantially
                                    lower than the Medicare payment amount during that period as
                                    well.25 26



                                       24 We are not publishing the brand-name average manufacturer sales price because of
                                    the proprietary nature of the manufacturer sales data.
                                       25 The Medicare payment amount for irinotecan in the second quarter of 2008 was
                                    $126.24 per 20 milligrams.
                                       26 The Medicare payment amount for irinotecan in the third quarter of 2008 ($74.75) is
                                    41 percent lower than it was for the previous quarter. This reduction is because of the
                                    inclusion of approximately 6 weeks of generic sales (generic irinotecan did not enter the
                                    market until the middle of the first quarter). The first full quarter of generic sales will be
                                    for the period from April 1 to June 30, 2008, which then will be reflected in the Medicare
                                    payment amount starting October 1, 2008. It is likely that the Medicare payment amount
                                    will undergo another reduction at that time.



         OEI-03-08-00310            M E D I C A R E PAY M E N T   FOR   IRINOTECAN                                                         8
F   I N D I N G


                      Medicare expenditures would have been reduced by $6.5 million in
                      March 2008 had the Medicare payment amount for irinotecan been based on
                      the average manufacturer sales price
                      We estimate that had the Medicare payment amount for irinotecan
                      been based on the calculated manufacturer prices in March 2008,
                      Medicare expenditures for this drug would have been reduced by
                      $6.5 million in that month alone.

                      Further, because of the two-quarter lag, the lower generic sales prices
                      for irinotecan are not reflected in the second-quarter 2008
                      reimbursement amount. As a result, we estimate that Medicare
                      expenditures could be reduced by a total of $26 million during the
                      period between the initial approval of generic irinotecan and the time
                      when the lower prices are included in the ASP calculation (i.e.,
                      March to June 2008).27




                         27 This assumes that expenditures would have been reduced by $6.5 million per month
                      for the 4 full months before generic prices were included in the Medicare payment amount
                      (March–June 2008).



    OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN                                             9
Δ   R E C O M M E N D A T I O N




                  OIG compared the Medicare payment amount to manufacturer prices
                  and found that the Medicare payment amount for irinotecan ($126.31)
                  was more than double the average manufacturer sales price ($51.59) in
                  March 2008. Further, Medicare and its beneficiaries would have saved
                  an estimated $6.5 million in March 2008 had Medicare payment
                  amounts been based on the average manufacturer sales price. The
                  recent approval of lower priced generic irinotecan, which accounted for
                  86 percent of irinotecan manufacturer sales in March 2008, led to this
                  substantial difference.

                  Because of the two-quarter lag in the ASP system, the Medicare
                  payment amount will not reflect any sales of lower priced generic
                  irinotecan until the third quarter of 2008. Further, because the generic
                  versions were not sold until the middle of the quarter, the full impact of
                  generic irinotecan will not be realized until the quarter beginning on
                  October 1, 2008. The results of this report indicate that the two-quarter
                  lag in the ASP system leads to Medicare payment amounts that are
                  substantially higher than manufacturer prices when generic products
                  first become available.

                  The underlying pricing issues identified in this report are not limited to
                  irinotecan because of the two-quarter lag in CMS’s standard process for
                  establishing Medicare payment amounts. Absent a change in the
                  standard process, Medicare payment amounts for drugs with new
                  generic versions will continue to be temporarily higher than
                  manufacturer sales prices, sometimes substantially.
                  We therefore recommend that CMS explore options to expedite the
                  process to ensure that Medicare payment amounts for drugs with
                  newly available generic versions accurately reflect market prices.
                  The Secretary has the authority to lower Medicare payment amounts
                  based on the results of OIG studies comparing ASPs to AMPs and
                  widely available market prices; however, CMS has yet to make any
                  changes as a result of OIG’s pricing comparisons. Further, the
                  effectiveness of using this authority to address the disparities
                  between Medicare payment amounts and market prices for drugs
                  with newly available generics is limited by timing issues. In addition
                  to the time needed to collect data on widely available market prices,
                  pricing changes based on these data would not take effect until the
                  quarter after OIG provides the pricing data to CMS. Therefore, CMS


OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN                        10
R   E C O        M M E N D A T                        I O N


                      should explore alternative options to address pricing discrepancies
                      arising from newly available generic drugs, which may include
                      seeking a legislative change.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its comments on the draft report, CMS concurred with our
                      recommendation. CMS expressed its commitment to ensuring
                      accurate payments for drug products under the ASP methodology and
                      will review any specific suggestions OIG may have to further this
                      goal. To that end, CMS stated that it continuously looks for ways to
                      improve the methods it uses to collect data. CMS noted that the
                      third-quarter 2008 Medicare payment amount for irinotecan is
                      $74.75, representing a 40-percent decrease from the previous quarter
                      ($126.24). CMS also noted that this decrease results in a payment
                      differential per unit for the third quarter that is substantially lower
                      than the differential for March 2008, demonstrating that the ASP
                      methodology reflects market-based prices over time.

                      OIG’s recommendation focuses on exploring options to reduce the
                      time it takes for ASP to reflect market-based prices. The third-
                      quarter payment amount is still substantially higher than the
                      average manufacturer sales price OIG found for March 2008 ($51.59),
                      further illustrating the effects of the two-quarter lag. The first full
                      quarter of generic sales data for irinotecan will not be reflected in the
                      Medicare payment amount until October 2008—almost 8 months
                      after the first generic versions reached the market.

                      The full text of CMS’s comments is provided in the Appendix.




    OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN                         11
Δ   A P P E N D I X


     Agency Comments




OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN   12
A P P E N D        I X




 OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN   13
ΔA   A PC EK N N D OI W
     P
                        L E D G M E N T S
                      X ~ A



                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and David E. Tawes, Director, Prescription Drug Pricing
                   Unit.

                   Edward K. Burley served as the team leader for this study. Other
                   principal Office of Evaluation and Inspections staff from the
                   Philadelphia regional office who contributed to the report include
                   Kevin McAloon; other central office staff who contributed include
                   Kevin Manley.




 OEI-03-08-00310   M E D I C A R E PAY M E N T   FOR   IRINOTECAN                       14
